                                                    SENSITIVE BUT UNCLASSIFIED



                                              United States Department of State
                                           and the Broadcasting Board of Governors
                                                  Office of Inspector General
Office of Inspector General

                                                 Office of Inspections

                               Inspection of the Bureau of Administration,
                                  Global Information Services, Global
                                           Publishing Solutions

                                            Report Number ISP-I-12-07, January 2012




                                                                Important Notice

                              This report is intended solely for the official use of the Department of State or the
                              Broadcasting Board of Governors, or any agency or organization receiving a copy
                              directly from the Office of Inspector General. No secondary distribution may be made,
                              in whole or in part, outside the Department of State or the Broadcasting Board of
                              Governors, by them or by other agencies of organizations, without prior authorization
                              by the Inspector General. Public availability of the document will be determined by the
                              Inspector General under the U.S. Code, 5 U.S.C. 552. Improper disclosure of this report
                              may result in criminal, civil, or administrative penalties.




                               SENSITIVE BUT UNCLASSIFIED
                                                    SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED



                    PURPOSE, SCOPE, AND METHODOLOGY
                           OF THE INSPECTION

        This inspection was conducted in accordance with the Quality Standards for Inspection
and Evaluation, as issued in 2011 by the Council of Inspectors General on Integrity and
Efficiency, and the Inspector’s Handbook, as issued by the Office of Inspector General (OIG) for
the U.S. Department of State (Department) and the Broadcasting Board of Governors (BBG).

PURPOSE AND SCOPE

       The Office of Inspections provides the Secretary of State, the Chairman of the BBG, and
Congress with systematic and independent evaluations of the operations of the Department and
the BBG. Inspections cover three broad areas, consistent with Section 209 of the Foreign
Service Act of 1980:

       •   Policy Implementation: whether policy goals and objectives are being effectively
           achieved; whether U.S. interests are being accurately and effectively represented; and
           whether all elements of an office or mission are being adequately coordinated.

       •   Resource Management: whether resources are being used and managed with
           maximum efficiency, effectiveness, and economy and whether financial transactions
           and accounts are properly conducted, maintained, and reported.

       •   Management Controls: whether the administration of activities and operations meets
           the requirements of applicable laws and regulations; whether internal management
           controls have been instituted to ensure quality of performance and reduce the
           likelihood of mismanagement; whether instance of fraud, waste, or abuse exist; and
           whether adequate steps for detection, correction, and prevention have been taken.

METHODOLOGY

In conducting this inspection, the inspectors: reviewed pertinent records; as appropriate, circulated,
reviewed, and compiled the results of survey instruments; conducted on-site interviews; and
reviewed the substance of the report and its findings and recommendations with offices,
individuals, organizations, and activities affected by this review.




                                           i
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

                                                        United States Department of State
                                                        and the Broadcasting Board of Governors

                                                        Office of Inspector General




                                           PREFACE


       This report was prepared by the Office of Inspector General (OIG) pursuant to the
Inspector General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980,
as amended. It is one of a series of audit, inspection, investigative, and special reports prepared
by OIG periodically as part of its responsibility to promote effective management,
accountability, and positive change in the Department of State and the Broadcasting Board of
Governors.

        This report is the result of an assessment of the strengths and weaknesses of the office,
post, or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

       The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective, efficient,
and/or economical operations.

       I express my appreciation to all of those who contributed to the preparation of this report.




                                              Harold W. Geisel
                                              Deputy Inspector General




                                           ii
                              SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED




                               Table of Contents
Key Judgments                                                 1
Context                                                       2
Executive Direction                                           3
Policy and Program Implementation                             5
  OMB Circular A-76 “Performance of Commercial Activities”    5
  Copier Management                                           5
  Customer Service Management                                 6
  Graphic Design Management                                   6
  Production Management                                       6
Resource Management                                           8
  Office Staffing                                            10
  Service-Level Agreements                                   11
  Administrative Functions                                   11
  Security                                                   14
Management Controls                                          15
List of Recommendations                                      16
List of Informal Recommendations                             17
Principal Officials                                          18
Abbreviations                                                19
Appendix I                                                   20




                                      iii
                          SENSITIVE BUT UNCLASSIFIED
                                SENSITIVE BUT UNCLASSIFIED


Key Judgments
    •     Bureau of Administration (A Bureau) officials cited the letter of obligation, the
          equivalent of a contract between the Department of State (Department) and the Bureau of
          Administration, Global Information Services, Global Publishing Solutions (A/GIS/GPS),
          as the source of managerial issues in the office and the main obstacle to improving
          operations. A/GIS/GPS has not developed an action plan to address these managerial
          issues since the letter’s termination in March 2011. A Bureau needs to prepare a strategic
          plan for A/GIS/GPS that identifies and prioritizes options for short-term and long-term
          fixes as well as aligns human and financial resources.
    •     A/GIS/GPS continues to use pricing not designed to recover all or more of its operating
          costs, which results in other profitable cost centers in the working capital fund absorbing
          these losses. A/GIS/GPS needs an aggressive approach, for example, a combination of
          increased prices and cutting its overhead costs, to generate more revenue and cover the
          costs of its operations.
    •     There is no management oversight of the information technology (IT) unit in A/GIS/GPS
          and systems development requires improvement. A/GIS plans to take over management
          of A/GIS/GPS information technology.




The inspection took place in Washington, DC, between September 12 and November 25, 2011.
(b) (6)




                                             1
                                SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED


Context
        A/GIS/GPS is the Department’s worldwide centralized resource for printing, publishing,
and domestic copier management services. Headquartered in Washington, DC, it has offices in
Manila, Philippines; Cairo, Egypt; and Vienna, Austria. The Washington office performs graphic
design, digital printing, and reproduction. The Manila and Cairo offices perform graphic design
and printing using economical offset printing presses. The Vienna office performs graphic design
but has no printing capability. There are also two small satellite offices in Washington in the
Office of the Secretary of State and at the Foreign Service Institute. A/GIS/GPS is a fee-for-
service organization, financed using the Department’s working capital fund.


            A/GIS/GPS Staffing

                                Washington     Manila    Cairo     Vienna       Total
             Civil Service         42            0         0         0           42
             Foreign Service        0            1         2         0            3
             Locally                0           48        27         1           76
             Employed Staff
             Contractors             13           1        0          1          15

             Total                   55           50       29         2          136


        The Washington office is the primary focus of this inspection. The OIG inspectors did
not inspect the Manila and Cairo offices. The concurrent inspection of Embassy Vienna found no
issues with A/GIS/GPS.

         Before reorganizing as A/GIS/GPS in 2007, the Washington office was called the Bureau
of Administration, Office of Records and Publishing Services, Office of Multi-Media Services
(A/RPS/MMS). It had a staffing complement of 40 centrally funded Civil Service employees and
a cadre of contractor staff. During this time, Manila and Vienna had full-scale printing operations.
Prior to consolidation with the Department in 1999, these overseas printing and publishing
operations were part of the U.S Information Agency.

        In 2006, A Bureau’s competitive sourcing program office conducted an Office of
Management and Budget (OMB) Circular A-76 study of the Department’s printing operations,
which led to an open competition among A/RPS/MMS and two outside commercial contractors.
A/RPS/MMS won the competition and become A/GIS/GPS. A letter of obligation between the
Department and A/GIS/GPS—the equivalent of a contract between the Department and a
private-sector offeror—defined the office’s structure, mission, standards of performance, and
terms of service.

      In March 2011, A Bureau management notified OMB of its plans to restructure
A/GIS/GPS and terminated the letter of obligation effective March 31, 2011. This action
removed A/GIS/GPS from A-76 controls.
                                               2
                           SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED



Executive Direction
        The A/GIS/GPS director, serving in the position since May 2009, manages all
A/GIS/GPS printing and copier activities worldwide. Like his three predecessors, he has not
been able to resolve longstanding management issues. The office’s organizational structure and
staffing model have been persistent concerns since the A-76 competition because they do not
align with the staffing and grade levels of other Federal printing operations. The reduction in the
previous customer base and the lack of fiscal profitability, as well as the loss of institutional
knowledge and leadership are other issues cited. Throughout its period of performance until
terminated on March 31, 2011, the letter of obligation restricted A Bureau’s authority to correct
managerial issues. The terms of the letter of obligation required A/GIS/GPS to be run like a
commercial business rather than a working capital-funded entity. All A/GIS/GPS directors
complied with the letter of obligation performance standards but were unable to reduce annual
printing losses and operate on a break-even basis.

         Bureau officials frequently cite the letter of obligation as the main obstacle to improving
A/GIS/GPS operations. However, A/GIS/GPS has not taken any substantive action since the
letter’s cancellation to address the issues referred to in the notification for its termination.
Furthermore, neither A/GIS/GPS nor A/GIS management produced, during the inspection, any
strategic or long-term plan to improve operations, which is surprising given the number of
challenges the office faces in the current budget climate. While A/GIS has taken steps to address
staffing and IT issues affecting the office, a long-term plan would provide A/GIS/GPS
management with the opportunity to define its direction and make decisions for allocating
resources.

Recommendation 1: The Bureau of Administration should review the staffing and structure of
its Global Publishing Solutions office and prepare a strategic plan that identifies and prioritizes
options for short-term and long-term fixes, as well as aligns human and financial resources.
(Action: A)

         The working relationship between the director and A/GIS management has hampered
A/GIS/GPS operations. While internal-day-to-day operations are performed adequately, overall
planning is insufficient. Communication between A/GIS management and the director is poor.
The director does not participate in A/GIS meetings and is not included in major decisions
affecting the office. The A/GIS deputy assistant secretary, acting in the position since February
2010 until appointed in September 2010, hired a new staff director with responsibility for
supervising A/GIS/GPS. He took the lead in addressing issues in the notification to terminate the
letter of obligation, for example, the hiring plan that would gradually replace contract positions
with full-time equivalent staff, but left to take another position in the Department about 5 months
after he was hired.
       (b) (5)




                                           3
                              SENSITIVE BUT UNCLASSIFIED
                                 SENSITIVE BUT UNCLASSIFIED
(b)(5)(b)(6)




           Informal Recommendation 1: The Bureau of Administration should require the
           management staff of the Global Information Services office to hold regular office
           meetings with the management staff of the Global Publishing Solutions office to discuss
           issues concerning the overall operation of the office.

          In October 2010, A/GIS management hired an outside consultant to conduct an
  assessment and analysis of print production operations within the Department. The resulting
  report outlines in detail the root causes for A/GIS/GPS fiscal losses, as well as the operation’s
  strengths, weaknesses, opportunities, and remedies for addressing its long-standing internal
  problems. At the time of the inspection, A/GIS had not shared the report with the A/GIS/GPS
  director despite it being finalized almost a year ago. (b) (5)
                                                  . The OIG inspectors believe the consultant’s report
  contains useful recommendations that would assist the director with improving operations.

           Informal Recommendation 2: The Bureau of Administration should require its Global
           Information Services management to share the Info Trends report, The U.S. Department
           of State, Global Publishing Solutions, Print Production Assessment, December 2010,
           with the director of its Global Publishing Solutions office, and review and implement the
           recommendations accordingly.




                                              4
                                 SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Policy and Program Implementation
OMB Circular A-76 “Performance of Commercial Activities”

        The intent of OMB Circular A-76, “Performance of Commercial Activities,” is to
establish procedures for determining whether commercial activities should be performed under
contract with commercial sources or in-house using Government facilities and personnel. Under
this policy, federal agencies performing commercial-type activities are permitted to provide them
in-house after successfully demonstrating through competition that they offer superior
performance at lower cost than the private sector.

        In the 2007 OMB Circular A-76 competition, the newly established A/GIS/GPS
submitted the most economical proposal for printing, publishing, and copier management
services among the three proposals and won the competition. Under the letter of obligation, the
equivalent of a contract, which defined the structure, mission, standards of performance, pricing,
and terms of service, A/GIS/GPS was subject to routine monitoring and adherence to
performance standards. For more than a 4-year period until the letter was terminated, A/GIS/GPS
met most of its performance standards and terms of service. Also, the contracting officer and
contracting officer’s representatives stated that there were no significant issues with
A/GIS/GPS’s performance. A minimum monthly performance measurement score of 85 was not
only met but often exceeded. A/GIS/GPS monthly printing and publishing customer satisfaction
surveys showed that on average, at least 80 percent of customers surveyed were satisfied with
printing services. Financial performance was not a criterion stipulated in the letter of obligation.

        In March 2011, A Bureau notified OMB of its decision to cancel the letter of obligation
and remove the organization from OMB Circular A-76 controls. A/GIS officials believe the
stipulations in the letter of obligation severely hampered its autonomy to address its long-
standing and unresolved managerial issues, as described in the Executive Direction section of
this report. The widespread view among the A/GIS/GPS management and other officials is that
the root cause of these conditions and the financial losses stems from the low bid submitted to
retain a legacy printing and publication operation in the Department. The OIG inspectors believe
there is merit to this assessment.

Copier Management

        The copier management program is the only profitable cost center in A/GIS/GPS. All
Department domestic bureaus and offices are required to obtain copier services through this
program. The now defunct letter of obligation set the pricing A/GIS/GPS could charge. Before
the OMB A-76 competition, nine employees performed this function. Under the letter of
obligation, the unit was restricted to four employees. At present, two Civil Service and two
contractor employees administer the program adequately; three of these employees spend a
significant amount of time manually gathering meter readings for about 1,100 copiers throughout
the Department. Cost savings could be achieved though automation and possibly negate the need
for the two contractor employees at a projected saving of about $200,000 annually. However,
there is concern about security as each copier would require connection to the network. The IT


                                           5
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

office would also need to resolve difficulties with its antiquated software and systems in order to
automate the process.

Recommendation 2: The Bureau of Administration should review the feasibility and cost
benefits of an automated system for reading copier meters. (Action: A)

       A/GIS/GPS is considering participation in the Federal Strategic Sourcing for Print
Management initiative. This pilot program is designed to reduce the amount of printing
equipment in use, minimize spending on paper and toner supplies throughout federal agencies,
and bring the government closer to the current print management practices used in private
industry.

Customer Service Management

       The customer service unit, a staff of four direct-hire and three contractor employees,
performs adequately. Staffing is sufficient to meet customer demand. The unit effectively
responds to and manages customer requests for printing jobs from the design phase to the
delivery of the finished product.
       (b) (5)




                                                                            The OIG
inspectors counseled A/GIS/GPS management on the need to implement an internal policy for
AWS and disseminate it to all employees in the office.

Graphic Design Management

         The graphic design unit is well managed and customer focused. The staff works well
together, assisting each other on assignments when necessary, particularly on large complex
projects. The designers work directly with customers to transform their ideas into professionally
designed products for distribution. These products include everything from simple logo creation
to bound book publications. The staff of five Civil Service and three contractor employees in the
unit is sufficient to meet customer demand.

Production Management

        The print production unit adequately performs its mission to provide print and
reproduction services to Department domestic offices. The unit’s staffing complement of 12
Civil Service and 5 contractor employees is sufficient to meet customer demand. For jobs
beyond its capability or requiring an offset press, the unit outsources work to the Manila and
Cairo printing plants or to the U.S. Government Printing Office. OIG’s limited customer
satisfaction survey showed that most A/GIS/GPS customers are generally satisfied with the

                                           6
                              SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED

printing unit’s performance. (b) (5)


        The unit’s products include a wide array of items, including seasonal desk and wall
calendars, weekly planners, certificates for awards, stationary with logos, business cards, and
custom design and print jobs. While these products are generally well received, a few customers
complained about quality control. Occasionally there were issues with inconsistent colors found
on the graphics and missing documents. Some customers also complained about the absence of
information on the A/GIS/GPS Web site and errors with prices, estimates, billings, and refunds.
The OIG inspectors did not look in-depth at these complaints but found that the customer service
unit does a good job of responding to customers and works closely with the production unit to
remedy all production errors.




                                            7
                               SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


Resource Management
        A/GIS/GPS’s Washington office is comprised of 42 Civil Service employees and 13
contractors. The chart below summarizes the 7-year financial performance of the office’s six cost
centers with further detail in Appendix I. Copier management is the only cost center that has
been consistently profitable.

              A/GIS/GPS – Financial Performance Summary

                   Year           Revenue       Expenses     Profit/Loss
                   2005         $46,899,125    $47,742,427   ($843,302)
                   2006         $65,643,565    $63,789,909   $1,853,656
                   2007        $249,449,152   $244,050,222   $5,398,930
                   2008        $371,418,587   $386,406,577 ($14,987,990)
                   2009        $190,860,852   $186,504,038   $4,356,814
                   2010         $67,652,949    $70,000,065  ($2,347,116)
                   2011         $22,983,073    $25,180,513  ($2,197,440)
                   Total      $1,014,907,303 $1,023,673,751 ($8,766,448)

Source: Bureau of Administration, Office of the Executive Director, Working Capital Fund




                                          8
                             SENSITIVE BUT UNCLASSIFIED
                                  SENSITIVE BUT UNCLASSIFIED

             A/GIS/GPS - Financial Performance Summary by Cost Center

 Fiscal    Washington     Vienna        Manila         Cairo          GPO           Copier        TOTAL
 Year       Printing      Printing      Printing      Printing       Printing       Mgmt.


 2005           64,737      (18,199)    (825,156)                0       52,781    (117,465)       (843,302)

 2006       (3,411,980)     603,926       475,792                0    2,741,245    1,444,673      1,853,656


Subtotal
            (3,347,243)     585,727     (349,364)                0    2,794,026    1,327,208      1,010,354
 MMS


 2007       (1,393,638)   (725,920)     (995,868)                0    6,685,621    1,828,735      5,398,930

 2008       (3,296,586)   (692,236) (1,578,279)       (699,536) (11,714,459)       2,993,106 (14,987,990)

 2009       (3,628,479)   (733,084)       128,816 (4,050,716)        11,116,426    1,523,851      4,356,814

 2010       (3,781,863)          140    (212,484) (1,407,886)          (43,995)    3,098,972     (2,347,116)

 2011       (1,794,976)   (366,078)     (968,428) (1,628,437)          146,623     2,413,856     (2,197,440)


Subtotal
         (13,895,542) (2,517,178) (3,626,243) (7,786,575)             6,190,216 11,858,520       (9,776,802)
 GPS


           (17,242,785) (1,931,451) (3,975,607) (7,786,575)           8,984,242 13,185,728       (8,766,448)
TOTAL

     Source: Bureau of Administration, Office of the Executive Director, Working Capital Fund


             As shown in the chart above, A/GIS/GPS has not generated sufficient revenue to cover its
     printing operation costs. Standard practice in the U.S. Government is for working capital cost
     centers to set their prices for services based on a thorough review of operational costs, ensuring
     that each activity is priced for full recovery of costs. The general intent of the working capital
     fund is to generate adequate sales revenue to cover the full costs of its operations, finance its
     continuing operations, and operate on a break-even basis. These are the criteria the U.S.
     Government Printing Office, also a working capital-funded entity, uses for its operation. For
     A/GIS/GPS, these core precepts were not followed. Since its inception in 2007, A/GIS/GPS has
     charged unrealistically low printing prices formulated during the OMB Circular A-76
     competition. One of the repercussions has been that the office operates at a loss. It appears that
     A/GIS/GPS’s compliance with the letter of obligation was in conflict with criteria governing the
     operation of working capital-funded entities.


                                               9
                                  SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

         Although now released from OMB Circular A-76 controls with the termination of the
letter of obligation, A/GIS/GPS continues to use pricing that is not designed to recover all or
more of its operating costs. The last price increase occurred in FY 2011, when the contracting
officer approved a modest 5 percent price increase for inflation for printing services. A/GIS/GPS
management is reluctant to dramatically increase its prices for fear it will alienate its customers.
Bureau of Administration, Office of the Executive Director, Working Capital Fund (A/EX/WCF)
projections estimate that A/GIS/GPS, including all six cost centers, will incur a total loss of $1.2
million or more for FY 2012. For the Washington printing office, the losses are estimated at
about $1.8 million. Other profitable cost centers in the working capital fund continue to absorb
these losses, which takes away resources from their own internal operations. To stem further
losses, A/GIS/GPS needs an aggressive approach, for example, through a combination of
increased prices and cutting its overhead costs, to generate more revenue and cover the costs of
its operations.

Recommendation 3: The Bureau of Administration should implement the prices it needs to
charge for its printing services to achieve its break-even point. (Action: A)

Office Staffing

        Staffing at the Washington printing office requires attention. The general consensus
among most Department officials interviewed by the OIG inspectors is that many of the General
Schedule (GS) positions in the office are graded too low. The OIG inspectors agree. (b) (5)
                                                                          makes it difficult for
A/GIS/GPS to hire and retain good personnel. Many employees, once granted a security
clearance, opt to leave for better paying jobs elsewhere. This was not always the case. Before the
OMB Circular A-76 competition, many of the positions were graded two levels higher.
Moreover, an independent consultant reported that print production employees in the office
currently paid at the GS-5 level are normally paid at the GS-7 level in other agencies depending
on their skill level. A/GIS/GPS’s print production manager is a GS-9. The same position in
comparable U.S. Government agencies is graded as GS-12 or GS-13. In other sections of
A/GIS/GPS, supervisors are graded at the GS-11 level but are performing duties associated with
the GS-12 or GS-13 range. Position audits performed in conjunction with the OMB Circular A-
76 competition deemed the current grades appropriate at the time. A/GIS/GPS management
acknowledges that this is an issue but has not yet taken steps to remedy the situation.

Recommendation 4: The Bureau of Administration should review the grade levels of positions
in the Global Publishing Solutions office and bring the grade levels of positions in the
Washington printing office in line with other offices such as the U.S. Government Printing
Office. (Action: A)

         The terms of the now obsolete letter of obligation placed a limit on the number of Civil
Service positions in A/GIS/GPS. To compensate, A/GIS/GPS is using contractors to supplement
its staff. A consultant estimated savings of about $400,000 to $600,000 in the Washington office
if the contractors were replaced with direct-hire employees. A/GIS has taken action to address
this issue. It is working with the Bureau of Human Resources on a hiring plan that would phase
out contract positions and replace them with full-time equivalent staff. This is a long-term plan

                                          10
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

with the goal of filling five positions per quarter. The positions would not be regularized until
contractors are moved off the payrolls and savings realized.

Service-Level Agreements

        For its high volume customers, A/GIS/GPS negotiates service-level agreements defining
the terms and conditions for providing print services. A/GIS/GPS has approved service-level
agreements with the Bureau of Diplomatic Security and the Foreign Service Institute. The
agreement with the Office of the Secretary is still in draft.

       Informal Recommendation 3: The Bureau of Administration should finalize the service-
       level agreement between the Global Publishing Solutions office and the Office of the
       Secretary.

Administrative Functions

        The OIG inspectors found issues, though not significant, with the performance appraisal
process, the training and awards programs, and outdated or nonexistent standard operating plans
and internal administrative policies. Administrative functions in A/GIS/GPS are performed by a
small cadre of staff. When the A/GIS/GPS director arrived in 2009, there were no positions for a
financial manager, purchasing agent, or managers over customer service, the copier program, and
information technology. In an office reorganization, the director distributed the duties of a vacant
administrative manager position among some of his first- and second-line supervisors. He
created and filled the financial manager position and assigned human resources duties to the
supervisor of the graphics design section. While this structure works well and the managers
perform adequately, the supervisor of the graphic design section puts in extra time handling
human resources issues for the office as well as managing the graphic design unit. A/GIS/GPS
no longer has the full-time equivalent staff to fill an administrative management position so this
issue cannot be resolved until a review of positions is performed, as recommended above.

       During the FY 2010 rating period, A/GIS/GPS staff did not receive formal performance
counseling sessions even though the dates were recorded in the performance appraisals.
According to 3 FAH-1 H-2821.3, these sessions are required and serve as a means for
supervisors to provide guidance to employees.

       Informal Recommendation 4: The Bureau of Administration should train supervisors
       and staff on the performance appraisal process and add performance appraisal duties to
       the work commitments of supervisors.

         A review of FY 2010 time and attendance records found the hard copies filed in an
unorganized manner. The approval of the actual records did not appear to be a problem, and the
files are stored in a locked file cabinet as required. There is no criterion in 4 FAH-3 H-520
describing how these records should be maintained (other than the number of years), and the
employee responsible for time and attendance has not had the formal training course. The OIG
inspectors counseled the employee and supervisor on the need to keep organized records and for
the timekeeper to attend formal training.

                                          11
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

       Informal Recommendation 5: The Bureau of Administration should provide formal time
       and attendance training to the timekeeper in the Global Publishing Solutions office.

        Other than an attendance and leave policy, the inspectors found no internal administrative
policies for the office. A/GIS/GPS has standard operating procedures but these may be outdated.

       Informal Recommendation 6: The Bureau of Administration should review and draft
       administrative policies and standard operating procedures for its Global Publishing
       Solutions office and disseminate them to staff.

         There is a perception among some of the staff that A/GIS/GPS lacks transparency in its
policies for training, awards, and some of its other internal office operations. Training
opportunities among A/GIS/GPS staff vary depending on the position. The staff with
administrative duties and graphics design staff appear to receive adequate training compared to
staff in other units. Several factors play into the limited training some staff receives. For
example, for some skill sets there are few training opportunities and the small size of some units
prohibits staff training because consistent day-to-day coverage is needed to meet customer
demand. (b) (5)




       Informal Recommendation 7: The Bureau of Administration should implement policies
       for awards and training in the Global Publishing Solutions office and disseminate them to
       the staff.

        The A/GIS/GPS information management section is responsible for four locally
developed applications used throughout the Department. These applications, operating on both
the Windows and Macintosh platforms, are used for Department notices, online certificates, post
reports, and the organizational telephone directory. The core print application used for the
Washington office’s day-to-day printing operation is the electronic print management system
(EPMS), a Macintosh application. The Washington office collaborates with A/GIS/GPS regional
offices overseas but the OIG team did not review the IT aspects of these operations.

        While not formally announced, plans are underway for A/GIS to merge the A/GIS/GPS
IT section with A/GIS to consolidate operations and improve efficiencies. Since there was no
formal plan to merge the IT functions of the two offices, the inspectors could not assess the
impact of the merger on A/GIS/GPS. During the inspection, A/GIS took over responsibility for
the organizational telephone directory and has plans to redesign A/GIS/GPS’s Web site. A/GIS
has taken the lead on other IT issues affecting the office. For example, during the inspection it
initiated action for the Bureau of Information Resource Management to take ownership of
Department Notices as part of the State Messaging and Archive Retrieval Toolset
implementation as originally envisioned in foundation documents.

        Three direct-hire positions in the section are vacant. The first week of the inspection, the
lead information management specialist departed. This individual managed the section and her
departure left a contract programmer as the sole IT staff for the office. Despite the transition the
                                          12
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

unit is experiencing, the OIG inspectors found that the office’s applications meet the basic
business needs of A/GIS/GPS users and customers.

        Because the position for the section supervisor is vacant, the contract programmer works
on his own, solely deciding the changes made to the system. The hiring process for the vacant
manager position is ongoing. A/GIS/GPS is in the process of hiring a second contractor with
Macintosh skills because finding a qualified direct-hire IT specialist with Macintosh experience
has been a challenge for the office. Lack of oversight and direct government supervision over the
section affects the integrity of the application.

Recommendation 5: The Bureau of Administration should assign a qualified full-time
equivalent employee to supervise Global Publishing Solutions programming tasks until the
supervisory information technology position is filled. (Action: A)

        Since the section’s expertise is with Macintosh rather than Windows systems,
A/GIS/GPS turned over to the Bureau of Administration, Executive Office, Information
Technology Services (A/EX/ITS) the management of the Windows applications. A service-level
agreement signed between the two parties obligates A/EX/ITS to manage the office’s application
servers and operating system.

       The OIG team identified problems with the IT section’s approach to systems
development, as well as a lack of government oversight related to changes and enhancements
made to the core print-production application. According to the programmer staff, the EPMS
application was developed and put into production over 10 years ago without a formal user
requirements study, design, or related documentation. As a result, the section performs
programming, systems maintenance, and enhancements in a disorganized manner without a
formalized change management system to ensure modifications follow generally accepted
systems development methodologies.

        The contract programmer generally receives user requests for programming maintenance
and enhancements through email, makes the code changes, and implements them in EPMS.
While the programmer reviews and tests each change to ensure the results are as expected, there
is no independent business review of the changes, nor does the programmer create or maintain
documentation related to the change. The programmer’s approach to change management has
sometimes surprised the users, as they are not notified that a change was made to EPMS until
they see the results on the screen or in a printout. Furthermore, there is no single log for
annotating programming changes that would detail the requestor and purpose of the change.

        There are various industry standard methodologies for systems development life cycle
management governing the process of building and maintaining information systems in a
structured and methodical way. The goal is to establish a consistent, predictable, and transparent
process. The current approach to systems development in A/GIS/GPS does not follow any
standard methodology.

Recommendation 6: The Bureau of Administration should implement a systems development
lifecycle process for its locally developed Global Publishing Solutions applications. (Action: A)

                                          13
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

        Some users expressed concern with the data integrity of the EPMS program and noted
incidents where customers complained about EPMS invoices or reports containing errors,
including incorrect and missing information and figures. The inspectors confirmed these
problems. The lack of a formalized test process and direct user involvement has negatively
affected the integrity of EPMS. Until a life cycle management procedure is implemented in
accordance with 5 FAH-5 H-520, users will continue to perform extra work and manually check
a sampling of EPMS transactions to ensure the program results. It is a time consuming and labor
intensive process for users to manually check each transaction to ensure the results are correct.
The OIG team observed these and other problems with the system adding to the user’s workload
and prohibiting EPMS from being user-friendly.

Recommendation 7: The Bureau of Administration should conduct an independent review of
the electronic print management system to ensure the program logic and computations perform
as required. (Action: A)

Security

        The A/GIS/GPS competently administers the security program and meets 12 FAM
563.1 requirements for appointing a unit security officer. The newly appointed, managerial-level
unit security officer has been with the office for 19 years and is knowledgeable of its operations.
He executes his duties in accordance with 12 FAM 563.2, which requires him to oversee,
develop, implement, and advise on procedures and controls for safeguarding classified
information entrusted to A/GIS/GPS, and to enforce all associated regulations. The director of
A/GIS/GPS is not directly involved in security matters. The unit security officer interacts directly
with the A Bureau security officer. Their working relationship is good.
       (b)(5)(b)(6)




        The A/GIS/GPS printing plant is considered a Secret-level classified work area. The
inspectors found proper operating procedures. Classified hard drives used for classified printing
are properly secured at close of business. The printing plant is locked and alarmed after hours.
The OIG inspectors counseled the unit security officer on printers not properly labeled for
classified processing in accordance with 12 FAM 632.1-5 c. This oversight was corrected during
the inspection.




                                          14
                              SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED




Management Controls
        The OIG team found no significant management controls issues in A/GIS/GPS other than
the lack of oversight and direct government supervision, as well as data integrity issues as
described in the information management section.




                                        15
                            SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


List of Recommendations
Recommendation 1: The Bureau of Administration should review the staffing and structure of
its Global Publishing Solutions office and prepare a strategic plan that identifies and prioritizes
options for short-term and long-term fixes, as well as aligns human and financial resources.
(Action: A)

Recommendation 2: The Bureau of Administration should review the feasibility and cost
benefits of an automated system for reading copier meters. (Action: A)

Recommendation 3: The Bureau of Administration should implement the prices it needs to
charge for its printing services to achieve its break-even point. (Action: A)

Recommendation 4: The Bureau of Administration should review the grade levels of positions
in the Global Publishing Solutions office and bring the grade levels of positions in the
Washington printing office in line with other offices such as the U.S. Government Printing
Office. (Action: A)

Recommendation 5: The Bureau of Administration should assign a qualified full-time
equivalent employee to supervise Global Publishing Solutions programming tasks until the
supervisory information technology position is filled. (Action: A)

Recommendation 6: The Bureau of Administration should implement a systems development
lifecycle process for its locally developed Global Publishing Solutions applications. (Action: A)

Recommendation 7: The Bureau of Administration should conduct an independent review of
the electronic print management system to ensure the program logic and computations perform
as required. (Action: A)




                                          16
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


List of Informal Recommendations
Informal recommendations cover operational matters not requiring action by organizations
outside the inspected unit and/or the parent regional bureau. Informal recommendations will not
be subject to the OIG compliance process. However, any subsequent OIG inspection or on-site
compliance review will assess the mission’s progress in implementing the informal
recommendations.

Informal Recommendation 1: The Bureau of Administration should require the management
staff of the Global Information Services office to hold regular office meetings with the
management staff of the Global Publishing Solutions office to discuss issues concerning the
overall operation of the office.

Informal Recommendation 2: The Bureau of Administration should require its Global
Information Services management to share the Info Trends report, The U.S. Department of State,
Global Publishing Solutions, Print Production Assessment, December 2010, with the director of
its Global Publishing Solutions office, and review and implement the recommendations
accordingly.

Informal Recommendation 3: The Bureau of Administration should finalize the service-level
agreement between the Global Publishing Solutions office and the Office of the Secretary.

Informal Recommendation 4: The Bureau of Administration should train supervisors and staff
on the performance appraisal process and add performance appraisal duties to the work
commitments of supervisors.

Informal Recommendation 5: The Bureau of Administration should provide formal time and
attendance training to the timekeeper in the Global Publishing Solutions office.

Informal Recommendation 6: The Bureau of Administration should review and draft
administrative policies and standard operating procedures for its Global Publishing Solutions
office and disseminate them to staff.

Informal Recommendation 7: The Bureau of Administration should implement policies for
awards and training in the Global Publishing Solutions office and disseminate them to the staff.




                                         17
                             SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED


Principal Officials

                                                       Name     Arrival Date

Director                                   Steven C. Johnston     May/2009




                                  18
                      SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED


Abbreviations
A Bureau             Bureau of Administration
A/EX/ITS             Bureau of Administration, Executive Office, Information
                     Technology Services
A/GIS                Bureau of Administration, Global Information Services,
A/GIS/GPS            Bureau of Administration, Global Information Services,
                     Global Publishing Solutions
A/RPS/MMS            Bureau of Administration, Office of Records and
                     Publishing Services, Office of Multi-Media Services
AWS                  Alternate work schedule
Department           Department of State
EPMS                 Electronic Print Management System
GS                   General Schedule
GPO                  U.S. Government Printing Office
OMB                  Office of Management and Budget
OIG                  Office of Inspector General




                            19
                SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED


Appendix I
    A/GIS/GPS – Financial Performance by Cost Center

         Copier       Year         Revenue         Expenses      Profit/Loss
         Mgmt
                      2005       $12,518,716      $12,636,181    -$117,465
                      2006       $10,825,217      $9,380,544     $1,444,673
                      2007        $9,507,990      $7,679,255     $1,828,735
                      2008       $11,426,532      $8,433,426     $2,993,106
                      2009        $9,742,245      $8,218,394     $1,523,851
                      2010        $9,938,948      $6,839,976     $3,098,972
                      2011        $9,903,736      $7,489,880     $2,413,856
       Total 8611                $73,863,384      $60,677,656   $13,185,728

          GPS         Year         Revenue         Expenses      Profit/Loss
        Printing      2005        $351,860         $287,123       $64,737
                      2006        $2,669,767      $6,081,747    ($3,411,980)
                      2007        $2,632,825      $4,026,463    ($1,393,638)
                      2008        $2,584,737      $5,881,323    ($3,296,586)
                      2009        $2,433,738      $6,062,217    ($3,628,479)
                      2010        $2,829,382      $6,611,245    ($3,781,863)
                      2011        $4,373,869      $6,168,845    ($1,794,976)
       Total 8614                $17,876,178      $35,118,963   ($17,242,785)

         Vienna       Year         Revenue          Expenses     Profit/Loss
         Center       2005         $950,360         $968,559      ($18,199)
                      2006         $852,530         $248,604      $603,926
                      2007         $490,381        $1,216,301    ($725,920)
                      2008         $803,092        $1,495,328    ($692,236)
                      2009         $380,079        $1,113,163    ($733,084)
                      2010         $672,916         $672,776        $140
                      2011         $343,480         $709,558     ($366,078)
        Total 8723                $4,492,838       $6,424,289   ($1,931,451)




                                    20
                        SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED


   Manila          Year        Revenue         Expenses        Profit/Loss
   Center         2005       $4,546,079       $5,371,235       ($825,156)
                  2006       $3,928,230       $3,452,438        $475,792
                  2007       $3,052,388       $4,048,256       ($995,868)
                  2008       $3,262,532       $4,840,811      ($1,578,279)
                  2009       $3,765,141       $3,636,325        $128,816
                  2010       $3,910,159       $4,122,643       ($212,484)
                  2011       $3,114,121       $4,082,549       ($968,428)
 Total 8724                  $25,578,650      $29,554,257     ($3,975,607)

    Cairo          Year        Revenue         Expenses        Profit/Loss
   Center         2005           $0               $0               $0
                  2006           $0               $0               $0
                  2007           $0               $0               $0
                  2008           $0            $699,536        ($699,536)
                  2009        $138,256        $4,188,972      ($4,050,716)
                  2010        $570,264        $1,978,150      ($1,407,886)
                  2011       $1,109,674       $2,738,111      ($1,628,437)
 Total 8729                  $1,818,194       $9,604,769      ($7,786,575)

Government        Year        Revenue         Expenses         Profit/Loss
 Print Office     2005      $28,532,110      $28,479,329        $52,781
                  2006      $47,367,821      $44,626,576       $2,741,245
                  2007      $233,765,568     $227,079,947      $6,685,621
                  2008      $353,341,694     $365,056,153     ($11,714,459)
                  2009      $174,401,393     $163,284,967     $11,116,426
                  2010      $49,731,280      $49,775,275        ($43,995)
                  2011       $4,138,193       $3,991,570        $146,623
 Total 8615                 $891,278,059     $882,293,817      $8,984,242

 A/GIS/GPS         Year       Revenue          Expenses        Profit/Loss
Combined Total     2005        $46,899,125      $47,742,427       ($843,302)
Combined Total     2006        $65,643,565      $63,789,909       $1,853,656
Combined Total     2007       $249,449,152     $244,050,222       $5,398,930
Combined Total     2008       $371,418,587     $386,406,577    ($14,987,990)
Combined Total     2009       $190,860,852     $186,504,038       $4,356,814
Combined Total     2010        $67,652,949      $70,000,065     ($2,347,116)
Combined Total     2011        $22,983,073      $25,180,513     ($2,197,440)
 Combined Total All Years   $1,014,907,303   $1,023,673,751     ($8,766,448)



                                21
                    SENSITIVE BUT UNCLASSIFIED
              SENSITIVE BUT UNCLASSIFIED
   SENSITIVE BUT UNCLASSIFIED




FRAUD, WASTE, ABUSE,
OR MISMANAGEMENT
of Federal programs hurts everyone.




           Contact the
   Office of Inspector General
          HOTLINE
to report illegal or wasteful activities:



             202-647-3320
             800-409-9926


         oighotline@state.gov


             oig.state.gov


      Office of Inspector General
       U.S. Department of State
            P.O. Box 9778
        Arlington, VA 22219



   Cables to the Inspector General
  should be slugged “OIG Channel”
      to ensure confidentiality.




                           22
    SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED
